REVIEW OF FAA’S FINAL MONITOR AID
TOOL AT DENVER’S TERMINAL RADAR
   APPROACH CONTROL CENTER
       Federal Aviation Administration
        Report Number AV-2008-022
       Date Issued: January 25, 2008
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of FAA’s Final Monitor Aid                  Date:    January 25, 2008
           Tool at Denver’s Terminal Radar Approach
           Control Center
           Federal Aviation Administration
           Report Number AV-2008-022

  From:    Lou Dixon                                               Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General for
            Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           This report presents the results of our review of the safety and suitability of the
           Federal Aviation Administration’s (FAA) Final Monitor Aid (FMA) tool deployed
           at Denver’s Terminal Radar Approach Control Center (TRACON). We initiated
           our review in response to a hotline complaint. Our objective was to determine if
           the FMA at the Denver TRACON is safe, effective, and suitable for managing air
           traffic. The exhibit to this report details our review scope and methodology.

           FMA allows Denver’s air traffic controllers to visualize and precisely manage
           aircraft on triple, simultaneous, final approaches to the airport’s parallel runways
           during low-visibility conditions. Without FMA, triple, parallel approaches at
           Denver are prohibited when visibility is limited, and the maximum aircraft
           acceptance rate into the airport is reduced by 33 percent—from 96 aircraft
           landings per hour to just 64 per hour.

           The FMA tool at the Denver TRACON runs on a Standard Terminal Automation
           Replacement System (STARS) computer and display. To receive flight and radar
           data, the STARS FMA system requires STARS hardware to be connected in a
           hybrid configuration to Denver’s existing terminal automation system, the
           Common Automated Radar Terminal System (CARTS).
                                                                                                                2


BACKGROUND
During 2006 and early 2007, the STARS FMA system was tested at the Denver
TRACON. Based on those tests, Denver officials concluded that the system was
safe. The system was subsequently commissioned on February 28, 2007,
concluding a lengthy installation and testing process.

In 1996, STARS was the centerpiece of the Agency’s nationwide terminal
automation modernization effort. However, FAA did not complete the nationwide
STARS deployment primarily because of affordability concerns. Recognizing
these concerns, we recommended in 2004 that FAA focus on replacing aging
controller displays at Denver and three other large TRACONs and upgrading
existing CARTS systems instead of deploying STARS.1 As we noted in
congressional testimony, replacing the aging displays is the most urgent issue
facing terminal modernization. 2

Subsequently, FAA decided to retain CARTS and is scheduled to replace aging
displays in Denver in 2008. Once the new displays are installed on CARTS in
2008, CARTS could be upgraded with FMA software. Once that upgrade is
complete, there will be no benefit to keeping the STARS FMA workstations—
from both an operational and a maintenance perspective.


RESULTS IN BRIEF
We found no evidence that Denver’s new STARS FMA system, as currently
configured and operating, is unsafe. It appears to be effectively performing the
role for which it was designed. However, Denver’s STARS FMA solution
requires two complete terminal automation systems, STARS and CARTS, to do
the job of one.

During testing in 2006, Denver’s STARS FMA system experienced problems
related to its hybrid configuration that raised legitimate safety questions. While
those safety issues were resolved, FAA’s use of two complete automation systems
to provide Denver with FMA capability raises questions about the suitability and
cost-effectiveness of the STARS FMA configuration compared with a single-
system approach. For instance, annual TRACON maintenance costs for STARS
FMA in 2006 were about $100,000, or over 12 times more than the approximately
$8,100 spent maintaining Denver’s legacy FMA system.

1
    OIG Report Number AV-2005-016, “Terminal Modernization: FAA Needs To Address Its Small, Medium, and
    Large Sites Based on Cost, Time, and Capability,” November 23, 2004. OIG reports and testimonies are available
    on our website: www.oig.dot.gov.
2
    OIG Testimony Number CC-2007-047, “Actions Needed To Reduce Risk With the Next Generation Air
    Transportation System,” May 9, 2007.
                                                                                3


In 2008, FAA will install new controller displays and upgrade the CARTS
automation system at Denver. These new displays will be able to present FMA
radar and flight data to controllers, without using STARS. Therefore, when
installing the new displays in Denver, FAA needs to determine whether it is more
cost-effective to maintain both STARS and CARTS or integrate FMA software
into one automation system. FAA should then implement the most suitable and
cost-effective means of providing FMA capability at Denver and other locations.


FINDINGS

Denver’s STARS FMA Is Safe but Requires Two Complete Automation
Systems To Provide FMA Capability
CARTS and STARS are two completely different automation systems, developed
by two different vendors. Because CARTS and STARS are separate systems,
FAA had to develop a unique software interface to allow the two systems to
exchange critical radar and flight data. However, this interface is so complex and
sensitive that a disruption on the CARTS side can cause the loss of all critical
flight data on the STARS FMA side.

For example, on October 4, 2006, all critical flight data were lost from Denver’s
STARS FMA displays during testing. This incident raised legitimate safety
questions about the STARS FMA system, which was removed from testing for
analysis. FAA subsequently developed a software interface patch, and the system
re-entered testing on November 1, 2006. According to Denver TRACON
officials, no additional malfunctions have occurred since testing resumed.

After the STARS FMA system re-entered testing, we visited the Denver TRACON
and watched the system operate. We interviewed local air traffic controllers,
managers, and maintenance and technical personnel and found no evidence to
indicate that the STARS FMA system is unsafe. The personnel we interviewed all
generally supported the view that FMA on STARS appears to operate safely and
perform the task for which it was designed.


FAA Needs To Consider a More Integrated Approach To Deliver the
FMA Capability at Denver
The Denver TRACON relies on two systems to provide FMA services. However,
this creates a complex configuration, which may not be the most suitable or
cost-effective way to obtain FMA capabilities. This configuration requires air
traffic controllers to be trained on both CARTS and STARS and FAA
maintenance technicians to support both systems.
                                                                                 4


Maintaining a complete STARS automation system for the sole purpose of
providing FMA also adds additional costs to the Denver TRACON’s operations.
In 2006, annual maintenance costs for STARS at Denver were about $100,000
versus only about $8,100 to support the legacy FMA system—an increase of more
than 12 times. Further, although STARS at Denver is a complete radar automation
system with associated STARS-only displays, Denver limits STARS to one role:
enabling FMA. The Denver TRACON does not utilize any other STARS features.
FAA personnel estimate that the FMA capability uses less than 5 percent of
STARS capabilities.

Instead of operating and maintaining two systems to provide FMA at Denver,
FAA could simplify its approach by integrating FMA software directly into the
CARTS automation system after replacing the aging CARTS displays in 2008.
An integrated FMA approach for CARTS is feasible; it was prototyped and
demonstrated to FAA officials in 2002. An integrated approach would also reduce
costs for training controllers and maintenance support. Lastly, adopting an
integrated FMA approach would eliminate the cost of separate STARS hardware
and STARS-only displays, the connecting software interface from CARTS to
STARS, and the cost to operate and support two systems.

We discussed a CARTS integrated FMA approach with FAA’s Terminal
Automation Program Office. The program manager was familiar with the
integrated approach. He acknowledged that after the plan to fully deploy STARS
changed, the unique situation at the Denver TRACON created a less efficient
maintenance condition. The program manager also agreed that integrating the
FMA capability into a single system would be technically feasible once the aging
displays in Denver are replaced in 2008.

Since those discussions, the program office began a cost-benefit analysis to
determine if it would be cost-effective to integrate FMA into a single automation
system after the aging displays are replaced in 2008. The cost-benefit analysis is
not yet complete. The estimated cost to integrate FMA into multiple air traffic
control facilities using CARTS, including Denver, is $2 million. However, FAA
anticipates that this cost will be offset by the benefit of having to maintain only
one terminal automation system that also provides FMA capability.
                                                                                5




RECOMMENDATIONS
We recommend that FAA determine whether it is more cost-effective to maintain
both STARS and CARTS in Denver or integrate FMA software into one system
once Denver’s aging displays are replaced in 2008. After taking this action, FAA
needs to implement the most cost-effective means of providing FMA capability at
Denver and other air traffic control facilities where FMA capability is justified.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our work with FAA managers at the Denver TRACON
and the Terminal Automation Program Office at the Agency’s Headquarters in
Washington, D.C. We also provided them with a discussion draft in December
2007 and incorporated their comments where appropriate. FAA Headquarters and
field office managers concurred with our findings, conclusions, and
recommendations. They pointed out that actions are underway (an ongoing cost-
benefit analysis) to address our concerns. We believe that management attention
will be needed to ensure follow-through by the Agency to identify and select the
most cost-effective approach for providing FMA at Denver and other facilities.


ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we request that FAA formally respond to
our recommendation within 30 calendar days. We are requesting that FAA
provide us with target completion dates for completing the cost-benefit analysis
and implementing the most cost-effective approach for providing FMA. FAA may
propose alternative actions that it believes would resolve the issues presented in
this report.

We appreciate the courtesies and cooperation of FAA representatives during this
review. If you have any questions or concerns about this report, please contact
Matthew E. Hampton, Deputy Assistant Inspector General for Aviation and
Special Program Audits, at 202-366-1987.


                                        #


cc: Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                             6




EXHIBIT. SCOPE AND METHODOLOGY
To accomplish our objective, we interviewed FAA managers from the Denver
TRACON at the Northwest Mountain Regional Office in Renton, Washington.
We reviewed FAA documents and records related to the Denver FMA system and
its automation platform, STARS, as well as FMA operation, performance, and
maintenance history.

We visited the Denver facility and observed STARS FMA operations. We
interviewed air traffic control and operational support personnel familiar with
STARS and Denver’s existing automation system, CARTS. We also discussed the
STARS FMA and CARTS systems with an FAA Headquarters official from the
terminal automation program office responsible for managing the acquisition and
installation of air traffic control equipment. We discussed Denver’s future
replacement displays with a representative of FAA’s display contractor. We
conducted this review between December 2006 and November 2007 in accordance
with generally accepted Government Auditing Standards prescribed by the
Comptroller General of the United States.




Exhibit. Scope and Methodology
